WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7639

Joseph A. Harris Michael Pacheco, Warden
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

oO only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: we og
4/2/21

Date:

(Type or print) Name Jenny L. Craig

O mr. O Ms. © Mrs. O Miss
Firm Wyoming Attorney General's Office
Address 109 State Capitol
City & State Cheyenne, WY Zip 82002
Phone (307) 777-7977 Email jenny.craig1@wyo.gov

A copy of this form must be sent to petitioner's counsel cr to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Joseph A. Harris

ce:
